No.
IN THE
SUPREME COURT OF THE UNITED STATES

Rp PR
MICHAEL SAMMONS;
Petitioned; L fel

L Li Vj El U Is

vs.
GEORGE ECONOMOU,
DRYSHIPS, INC.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
r
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

FILED
NOV 1 6 2020
OFFICE OF THE CLERK
SUPREME COURT i iq

Michael Sammons, pro se
1013 10th St #B
Galveston, TX 77550
1-210-858-619
michaelsammons@yahoo.com

RECEIVED
NOV 2 0 2020

I.

QUESTIONS PRESENTED

(i)

Whether, as the Ninth Circuit has held, a
plaintiff has an “absolute right” to
voluntary dismissal under FRCP, Rule
41(a)(1)(A)(i), if no answer or motion for
summary judgment has been filed, or
whether, as in the Fifth Circuit, courts
have the discretion to disregard such a
dismissal. A circuit split exists on this
question, with the Ninth Circuit holding
that the right is “absolute,” while the Fifth
Circuit holds the right is subject to court
“discretion.”

(ii)

Whether generally a pro se litigant should
receive at least one warning before a
monetary sanction is imposed for
presenting a “frivolous” issue, in this case
a sanction for seeking mandamus review to
challenge refusal to allow a FRCP, Rule
41(a) (a) (A) (i) voluntary dismissal

2

II.

PARTIES TO THE PROCEEDING

The parties to the mandamus proceeding in
the United States Court of Appeals for the Fifth
Circuit were only Petitioners Michael and Elena
Sammons, while Respondents George Economou and
Dryships, Inc. were interested parties to that
proceeding.

III.
I.
II.
III.
IV.
V.
VI.
VII.
VIII.
IX.
X.
XI.
XII.
XIII.
XIV.

TABLE OF CONTENTS

Question Presented ........................
Parties to the Proceeding .............
Table of Contents ...........................
Table of Authorities........................
Petition for Writ of Certiorari ......
Opinions Below ..............................
Jurisdiction ....................................
Constitutional Provisions Involved
Statement of the Case ..................
Reasons For Granting The Writ ...
Conclusion......................................
Certificate of Service ....................
Certificate Of Compliance ...........
Appendix .......................................

3

2
2
3

4
5
5
5
6
6

9
14
17
18
19

i.

n
m.
IV.

v.
vi.

Court of Appeals decision ... App. 1
Rehearing denied................. App. 2
Mandamus Petition............. App. 3
App. 4
District Court order ...........
Motion to Lift Stay............... App. 5
Notice Voluntary Dismissal .. App. 6

....
....
....
....
....
....

20
24
25
69
70
71

IV. TABLE OF AUTHORITIES
RULES
FRCP, Rule 4l(a)(l)(A)(i)
FRCP, Rule 41(a)(1)(B) ..

passim
7, 14

CASES

Concha v. London. 62 F.3d 1493, 1504
(9th Cir 1995) ................................................................ 10
Elena Sammons v. Economou. et al, No. 19-51097
7
(5th Cir. Feb 2, 2020) .....................................
13, 16
Haines v. Kerner. 404 U.S. 519 (1972) .....
Sammons v. Economou. 940 F.3d 183, 185.
6
(5th Cir 2019)

4

V. PETITION FOR WRIT OF CERTIORARI

Michael Sammons, pro se, petitions for a writ
of certiroari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.

VI. OPINIONS BELOW
The court of appeals’ opinion, in which it held
that a voluntary dismissal under Rule 41 (a)(1) (A) (i)
need not be recognized by either the district court or
the court of appeals, is unreported. That opinion
also imposed a $200 monetary sanction upon finding
that raising such a pro se challenge via mandamus
was “frivolous.” (App. 1).
The district court opinion implicitly refusing to
recognize Mr. Sammons’s voluntary dismissal under
FRCP, Rule 4l(a)(l)(A)(i), with prejudice pursuant to
FRCP, Rule 41(a)(1)(B) as successive, is unreported.
(App. 4).

VII. JURISDICTION
The court of appeals entered judgment on
June 10, 2020. (App. l). A petition for rehearing
and for en banc review were denied on November 12,
2020. (App. 2). This Court has jurisdiction under
28 U.S.C. §1254(1).

5

VIII. CONSTITUTIONAL PROVISIONS
INVOLVED
This case involves those constitutional
provisions applicable to access to the courts, and due
process and equal protection, for pro se litigants,
under the First and Fifth Amendments to the U.S.
Constitution.

IX. STATEMENT OF THE CASE
The facts are simple and undisputed, and the
issues are wholly of law^ whether FRCP, Rule
41 (a)(1) (A) (i) is “mandatory” or “discretionary” and
whether, generally, a pro se litigant should receive at
least one warning before a monetary sanction is
imposed for presenting a “frivolous” issue.
On February 27, 2018, after dismissing a
prior similar lawsuit in the Marshall Islands,
Mr. Sammons filed a second identical lawsuit in
district court in San Antonio, TX. Defendants moved
for Rule 41(d) costs of the first case, which was
granted in part, and the case was stayed on October
31, 2018, until Mr. Sammons paid those prior costs.
Sammons v. Economou. 940 F.3d 183, 185 (5th Cir
2019). Dr. Elena Sammons, his wife and co-plaintiff,
was explicitly found not liable for any Rule 41(d)
costs. U.S. Magistrate’s recommendation, accepted

6

by the district judge, Case No. 5;18'cv00194, Dkt.
56, pg. 14 (“the Court should impose the costs on
Mr. Sammons only”). Mr. Sammons made no
payment in 2018, 2019, or 2020.
In 2019 the district court denied a motion
by Dr. Sammons’s (filed by she alone) to dismiss or
sever Mr. Sammons so that her separate and
independent claims could go forward. The Fifth
Circuit denied review by direct appeal or mandamus,
holding that if Dr. Sammons wished to continue with
her individual claims she could pay Mr. Sammons
Rule 41(d) sanction for him (although she had no
legal obligation to do so). Elena Sammons v.
Economou. et al. No. 19-51097 (5th Cir. Feb 2, 2020).
On February 18, 2020, electing not to ever pay
the Rule 41(d) costs, and to allow Dr. Sammons to
pursue her separate and independent claims,
Mr. Sammons filed a voluntary dismissal in the
district court pursuant to FRCP, Rule 4l(a)(l)(A)(i),
which was effectively “with prejudice” pursuant to
FRCP, Rule 41(a)(1)(B) as successive. (App. 6).1

1
The notice of dismissal by Mr. Sammons
stated, “Plaintiff Michael Sammons, pro se, hereby
gives notice that he hereby withdraws from this case
and is dismissing all of his claims, pursuant to
FRCP, Rule 41(a)(1)(A).” App. 6.
It is undisputed that no answer or motion for
summary judgment had been filed in the district
court.

7

On February 21, 2020, with Mr. Sammons
now presumably out of the case, Dr. Elena Sammons
moved to lift the Rule 41(d) stay caused by
Mr. Sammons (and by he alone) as moot. (App. 5)
On March 11, 2020 the district court denied
the motion to lift stay without comment. (App. 4)
On March 18, 2020 Mr. and Dr. Sammons,
unsure whether they should file a notice of appeal or
a petition for writ of mandamus, filed a petition for
writ of mandamus in the Fifth Circuit, challenging
the refusal of the district court to recognize the
voluntary dismissal of Mr. Sammons. (App. 3)
On June 10, 2020 the Fifth Circuit made clear
that Mr. Sammons could not voluntarily withdraw
from the case pursuant to Rule 4l(a)(l)(A)(i) until
he paid the Rule 41(d) costs and again stated that
Dr. Sammons could lift the stay if she paid the
sanction for Mr. Sammons (although she had no legal
obligation to do so):
“ ... Michael Sammons filed a notice of
voluntary dismissal... (T)hey may (must)
pay the Rule 41(d) costs (imposed against only
Mr. Sammons) to lift the stay, litigate the suit
to completion, and seek appellate review of a
final judgment.” (App. 1, pgs 2-3)
As to Michael Sammons, the Fifth Circuit, in
holding that he could not voluntarily dismiss his
claims, but must rather “pay the Rule 41(d) costs,” is
the first circuit court to hold that a voluntary

8

dismissal under FRCP, Rule 41(a)(1)(a) is not a
matter of “absolute right,” as held in the Ninth
Circuit, but is discretionary with both the district
and circuit court.
The Fifth Circuit further held that the
reliance by the pro se Mr. and Dr. Sammons upon
the clear language of FRCP, Rule 41(a)(1)(A), as
interpreted by the Ninth Circuit (agreeing that the
right to a voluntary dismissal under Rule 41(a)(1)(A)
was “absolute”), and seeking review via mandamus,
was nevertheless “frivolous,” and imposed a $200
sanction. (App. l). The pro se plaintiffs had never
received any warning - nor has any court ever held
in any other case - that challenging a district court
refusal to recognize a voluntary dismissal via
mandamus was “frivolous.”
The petitions for panel rehearing and for en
banc review were denied without comment, on
November 12, 2020. (App. 2)
X. REASONS TO GRANT THE WRIT
This case presents the perfect vehicle to
resolve an important circuit court split on FRCP,
Rule 4l(a)(l)(A)(i), the only means of voluntary
dismissal without court action or permission.
Because this voluntary dismissal rule applies
to innumerable federal cases every year, including
many pro se cases, a consistent understanding and
treatment of the rule is important.

9

This case also presents the perfect vehicle to
establish the standard for imposing monetary
sanctions upon non'indigent pro se litigants who
present a “frivolous” issue, here an issue never before
deemed frivolous in their case or in any other court ever • and indeed an issue upon which identical relief
was granted by another circuit court panel (vacated
en band.

FRCP, Rule 4l(a)(l)(A)(i)
The Fifth Circuit has now created a
circuit split over the clear language of FRCP,
Rule 4l(a)(l)(A)(i).
The Fifth Circuit decision in this case,
refusing to recognize Mr. Sammons’s absolute right
to withdraw under Rule 4l(a)(l)(A)(i), presumably as
a matter of its discretion, is contrary to the express
language of the rule“(T)he plaintiff may dismiss an action without
a court order by filing ... a notice of dismissal
before the opposing party serves either an
answer or a motion for summary judgment.”
As the Ninth Circuit correctly held in Concha
v. London. 62 F.3d 1493, 1506 (9th Cir 1995):
“Under Rule 41(a)(1), a plaintiff has an absolute
right voluntarily to dismiss his action prior to

10

service by the defendant of an answer or a
motion for summary judgment... The dismissal
is effective on filing and no court order is
required.” (emphasis added)
Here it is undisputed that the defendants had
served no answer or motion for summary judgment.
Allowing the Fifth Circuit to write into FRCP,
Rule 41 (a)(1)(A)(i) an additional requirement that, in
addition to the rule’s explicit requirement that no
answer or motion for summary judgment have been
filed, that there also be no pending sanctions order
(or perhaps any pending order at all) before such
voluntary dismissal would be recognized, ignores the
express and explicit language of the rule.
Standard for Pro Se Monetary Sanctions
Perhaps even more important, given that
almost 50% of U.S. litigation is now pro se, is the
issue whether a court should impose monetary
sanctions for a filing deemed “frivolous” with no prior
warning to those litigants that the issue was
frivolous - an issue here which no court, anywhere,
had ever held was in fact frivolous.
Pro se filings are most often made by citizens
who cannot afford legal counsel. The potential
threat of monetary sanctions for a filing deemed
“frivolous” chills all pro se litigation. Even wellestablished legal principles to attorneys are

11

sometimes simply not common knowledge to pro se
litigants.
Here, Mr. Sammons was sanctioned $200 for
challenging a Rule 41(a) voluntary dismissal
rejection via mandamus. The question as to whether
mandamus review was available to review a denial of
a voluntary dismissal had never been raised in this
case before. Before finding such an attempt
“frivolous” in this case, the Fifth Circuit had never
before held such an attempt would be frivolous;
indeed other circuit courts have expressly allowed
challenges involving rejection of a voluntary
dismissal via mandamus. Cf. In re Michael Flynn,
D.C. Circuit, No. 20-5143 (June 24, 2020)(granting
mandamus relief for refusal of district court to
recognize a voluntary dismissal)(over-ruled en banc).
In a typical non-indigent civil complaint or
appeal (or mandamus), there should be a general
presumption that a reasonable litigant would not pay
a $500 filing fee to present a frivolous issue - at least
where such pro se litigant had no warning such
attempt would be deemed frivolous and sanctionable.
Such a pro se litigant should not be sanctioned
for raising a “frivolous” issue without at least one
warning or some indication he/she knew or
reasonably should have known the issue was
frivolous, such as at least one opinion somewhere
that seeking mandamus review of a denial of a
voluntary dismissal would in fact be frivolous and
sanctionable.

12

What would certainly be viewed as frivolous to
an attorney could simply be misunderstood by a pro
se litigant. If every single motion or filing by a pro se
litigant made in good faith is subject to a monetary
sanction, the constitutional right to proceed pro se is
impermissibly chilled.
Here the Fifth Circuit held that it was
patently “frivolous” to believe a challenge to a
district court refusing to recognize a statutory
dismissal of right under Rule 41(a)(1) could be
raised via a petition for writ of mandamus. Even if
a correct legal conclusion (cf. In re Michael Flynn,
supra), how could a pro se litigant know for sure
such a petition would be “frivolous” particularly
where no warning that such a mandamus attempt
would be “frivolous” was given and no court anywhere, ever - has held that it would be frivolous
to challenge a rejection of a voluntary dismissal of
right via mandamus (with the D.C. Circuit having
held explicitly to the contrary. Id.)?
To prevent chilling the right to proceed pro se
this Court should hold as follows^ (l) that, generally,
payment of court or appeal filing fees creates a
presumption that the litigant sincerely believes he is
entitled to relief, (2) that generally monetary
sanctions should not be imposed upon such a pro se
litigant for presenting an issue for which such
litigant had never been warned was frivolous by a
court, and (3) that the spirit of this Court’s
admonition in Haines v. Kerner, 404 U.S. 519 (1972),
that pro se filings are to be construed “liberally” also

13

applies to whether sanctions are appropriate for such
filings.
XI. CONCLUSION
FRCP, Rule 41 (a)(1)(A)(i) provides a plaintiff
with the absolute right to dismiss a case prior to an
answer or motion for summary judgment being filed.
Yet here, although Mr. Sammons clearly met
the requirements for a voluntary dismissal, the Fifth
Circuit refused to recognize such dismissal
“presumably” because there was a pending unpaid
Rule 41(d) judicial sanction against Mr. Sammons
in the district court (“presumably” because the
Fifth Circuit gave no reason for ignoring the
Rule 41 (a)(1)(A)(i) dismissal but did reference the
Rule 41(d) unpaid Rule 41(d) sanction).
Whether FRCP, Rule 4l(a)(l)(A)(i) is
mandatory, as the Ninth Circuit has held, or is
“discretionary,” as this case shows is the contrary
view of the Fifth Circuit, is a circuit split which
needs to be resolved if there is to be consistency and
uniformity in the federal courts when applying this
important rule for voluntary dismissals.
But the true gravamen of this case is that the
pro se Mr. Sammons, willing to have his entire case
voluntarily dismissed under Rule 4l(a)(l)(A)(i), and
dismissed effectively with prejudice as successive
under Rule 41(a)(1)(B), was ordered by the Fifth
Circuit to “litigate the suit to completion.” Never
before has a plaintiff, pro se or otherwise, been told

14

that he cannot dismiss his entire case with prejudice,
but rather must, against his wishes, “litigate the suit
to completion.”
Finally this case also provides the Court an
opportunity to show once again that pro se litigants
are also worthy of this Court’s attention. Pro se
petitions, like this one, are never remotely as well
written as those of $500/hour appellate attorneys,
but some, like this one, do have equal merit.
No court - anywhere - ever — has held that it
would be frivolous to challenge the refusal of a trial
court to recognize a voluntary dismissal as a matter
of right via mandamus. Indeed, in a very similar
case a D.C. Circuit panel granted mandamus relief
(over-ruled en banc).
No judge - in this case - ever informed
Mr. Sammons that filing a mandamus action would
be frivolous and sanctionable.
No judge - in any other case - has ever held
that it would be frivolous to challenge a denied
voluntary dismissal of right via mandamus.
And while a D.C. Circuit panel granted
mandamus relief on an almost identical matter, the
pro se Mr. Sammons’s almost identical mandamus
petition before the Fifth Circuit was summarily
dismissed as “frivolous” with monetary sanctions
imposed.
This Court has long championed the right of
its citizens - those educated and those less educated
— to pro se access to the courts. Summary monetary
sanctions for filings deemed frivolous, without any

15

prior warning, or any finding that any reasonable
pro se litigant would have known the filing was
frivolous - disregards the frequently repeated
admonition of this Court that pro se filings are to be
construed liberally. Haines v. Kerner. 404 U.S. 519
(1972).
For the foregoing reasons, Mr. Sammons,
pro se, respectfully requests that this Court issue
a writ of certiorari, and vacate the decision below
denying a writ of mandamus, and remand for
reconsideration (a) under the correct legal
understanding that a proper Rule 4l(a)(l)(A)(i)
voluntary dismissal is “mandatory” not
“discretionary,” and (b) under the appropriate
“liberal” standard for determining whether
monetary sanctions are appropriate against a pro se
litigant for a filing deemed “frivolous” (at least where
no prior warning had been given, and where a
reasonable pro se litigant could have believed in good
faith that the filing was colorable).
DATED this 16 day of November, 2020.

Respectfully submitted,

Michael Sammons, pro se

16

XIV. APPENDIX

App. 1 Court of Appeals decision

20

App. 2 Rehearing denied

24

App. 3 Mandamus Petition

25

App. 4 District Court order

69

App. 5 Motion to Lift Stay

70

App. 6 Notice of Voluntary Dismissal

71

19

App. 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 20-50217
A True Copy
Certified order issued Jun 10, 2020

In re: ELENA SAMMONS; MICHAEL SAMMONS,

W. OcmjL*.
Clerk, U.S. Court of Appeals, Fifth Circuit

Petitioners

Petition for a Writ of Mandamus to the
United States District Court for the
Western District of Texas

Before HIGGINBOTHAM, SOUTHWICK and HO, Circuit Judges.
PER CURIAM:
Elena and Michael Sammons have filed in this court a pro se petition
for a writ of mandamus, their third such attempt to challenge the district
court’s issuance of a stay pending payment of costs under Rule 41(d) of the
Federal Rules of Civil Procedure. We deny the petition and impose sanctions.
This matter arises out of a lawsuit originally filed by Michael Sammons
in the Republic of the Marshall Islands (RMI). After the defendants sought
dismissal, which the RMI court indicated it was inclined to grant, Michael
Sammons filed a motion for voluntary dismissal, which amounted to a notice
of dismissal under Rule 41(a)(1)(A). Sammons v. Economou, 940 F.3d 183, 185
(5th Cir. 2019). Elena and Michael Sammons then filed a suit making similar
allegations in the Western District of Texas. Id. The district court granted the
defendants’ motion for costs incurred in the RMI action pursuant to Rule
41(d)(1), a total of $26,726, and stayed the matter until the costs were paid, as
authorized by Rule 41(d)(2). Id. The Sammonses appealed and alternatively

2o

No. 20-50217
sought mandamus relief. Id. We held that we lacked jurisdiction as the order
was not appealable and that mandamus relief was unavailable because the
Sammonses had adequate other means to obtain relief, namely, by direct
appeal after final judgment. Id. at 186-88.
On October 15, 2019, Elena Sammons moved to lift the stay in the
district court and to dismiss Michael Sammons under Rule 41, asserting that
Michael Sammons would never pay the court-ordered costs. The district court
denied both motions, and Elena Sammons appealed and sought mandamus
relief. Sammons v. Economou, No. 19-51097 (5th Cir. Feb. 18. 2020). We again
dismissed the appeal for lack of a final decision and for failure to show
entitlement to mandamus. Id. We further stated that the Sammonses could
lift the stay by paying the costs as ordered and that we would “review any claim
of error after they litigate the case to completion before the district court.” Id.
at 2.

We denied the defendants’ request for damages and imposition of

sanctions. Id.
That same day, Michael Sammons filed a notice of voluntary dismissal.
Three days later, on February 21, 2020, Elena Sammons again moved to lift
the stay, asserting that the voluntary dismissal rendered the Rule 41(d) order
and stay moot. The district court denied the motion by order entered on March
11, 2020. This mandamus petition followed. In it, the Sammonses contend
that the district court should be compelled to recognize Michael Sammons’s
most recent notice of voluntary dismissal and vacate the stay because, without
Michael Sammons’s presence, there is no plaintiff remaining in the case subject
to the Rule 41(d) costs. They assert that the court’s actions amount to coercion
of payment by Michael Sammons so that Elena Sammons may continue with
her suit. Further, they argue, because he seeks dismissal with prejudice, the
defendants will not have to defend against his claims. Relatedly, they contend

2

No. 20-50217
that the district court no longer has authority over Michael Sammons in light
of the voluntary dismissal.
“Mandamus is an extraordinary remedy that should be granted only in
the clearest and most compelling cases.” In re Willy, 831 F.2d 545, 549 (5th
Cir. 1987). A party seeking mandamus relief must show both that he has no
other adequate means to obtain the requested relief and that he has a clear
and indisputable” right to the writ. Id. (internal quotation marks and citation
omitted). Mandamus is not a substitute for appeal. Id. “Where an interest
can be vindicated through direct appeal after a final judgment, this court will
ordinarily not grant a writ of mandamus.” Campanioni u. Barr, 962 F.2d 461,
464 (5th Cir. 1992). The requirement that a party have no other adequate
means to obtain relief is “designed to ensure that the writ will not be used as
a substitute for the regular appeals process.” Cheney v. U.S. Dist. Court for
D.C., 542 U.S. 367, 380-81 (2004).
As we have twice informed the Sammonses, they have other adequate
means of obtaining relief: they may pay the Rule 41(d) costs to lift the stay,
litigate the suit to completion, and seek appellate review of a final judgment.
Thus, mandamus relief is not appropriate and the petition is denied.
Although we previously declined to impose sanctions, we will not
countenance the continued waste of judicial resources in the form of repeated
efforts to seek relief that we have made clear is unavailable. Therefore, we
impose a sanction of $200, payable by the Sammonses to the clerk of this court.
See Farguson v. MBank Houston, N.A., 808 F.2d 358, 360 (5th Cir. 1986). Until
that sanction is paid in full, the clerk shall not accept any further filings by
Elena Sammons or Michael Sammons, whether filed individually or jointly,
related to the underlying matter. In addition, we caution the Sammonses that
any future repetitive, abusive, or frivolous filings may result in additional and

3

Z"2-

No. 20-50217
more progressively severe sanctions, including additional monetary sanctions
and restrictions on the ability to file pleadings in this court or any court subject
to this court’s jurisdiction.
MANDAMUS

PETITION

DENIED;

SANCTION WARNING ISSUED.

4

^3

SANCTION

IMPOSED;

Case: 20-50217

^ -ument: 00515634926

Page: 1

' le Filed: 11/12/2020
App. 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 20-50217

In re: ELENA SAMMONS; MICHAEL SAMMONS,
Petitioners

Petition for a Writ of Mandamus
to the United States District Court for the
Western District of Texas

ON MOTION FOR RECONSIDERATION AND REHEARING EN BANC
Before Higginbotham, Southwick, and Ho, Circuit Judges.
Per Curiam:
The Motion for Reconsideration is DENIED and no member of this panel nor judge
in regular active service on the court having requested that the court be polled on Rehearing
En Banc, (FED. R. APP. P. and 5TH CIR. R. 35) the Petition for Rehearing En Banc is also
DENIED.

PATRICK E. HIGGINBOTHAM
UNITED STATES CIRCUIT JUDGE

